BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Motion for Leave and Brief for Americans for
Prosperity Foundation and Rutherford Institute as
Amici Curiae in Support of Petitioner in 20-7 4 74,
Ezralee J. Kelley v. United States of America, was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day and e-mail service to
the following parties listed below, this 5th day of May
2021:
Matthew A. Campbell
Federal Public Defender, District of the Virgin Islands
1336 Beltjen Road
Suite 202
Saint Thomas, VI 00802
(340) 77 4-4449
matt_campbell@fd.org

Counsel for Petitioner
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Joshua C. Toll
Counsel of Record
Marisa C. Maleck
Edward A. Benoit
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
jtoll@kslaw.com
mmaleck@kslaw.com
e benoit@kslaw.com
Michael Pepson
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. Courthouse Rd.
Suite 700
Arlington, VA 22201
(571) 329-4529
mpepson@afphq.org
John W. Whitehead
Douglas R. McKusick
RUTHERFORD INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888
legal@rutherford.org
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 5, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: - ~<f

Notary ~b:
[seal]

6- , OJ?,-/

IJ'

Ju~

